No. 20-7889

 

IN THE SUPREME COURT OF THE UNITED STATES

 

ANTHONY SISTRUNK

Petitioner
Vv.

UNITED STATES OF AMERICA
Respondent

 

RESPONDENT MAURICE ATKINSON’S BRIEF IN SUPPORT OF
PETITIONER DOUGLAS KELLY’S PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT
Respondent, Maurice Atkinson, supports the position of Petitioner, Anthony
Sistrunk. As such, Respondent Atkinson adopts the arguments set forth in
Petitioner Sistrunk’s Petition for Writ of Certiorari and incorporates them into his
Petition. For the reasons set forth in Petitioner Sistrunk’s Petition for Writ of
Certiorari, Respondent Atkinson respectfully requests that the Supreme Court
grant certiorari in the instant case.
Respectfully Submitted,
THOMAS, THOMAS & HAFER, LLP
/s/ John F. Yaninek

John F. Yaninek, Esquire
PA Attorney ID #55741
PO Box 999
Harrisburg, PA 17108
(717) 441-3952 - Phone
(717) 237-7105 — Fax
Date: May 5, 2021 Attorney for Respondent, Maurice Atkinson

1
CERTIFICATE OF MEMBERSHIP IN BAR
I, JOHN YANINEK, counsel for Respondent Maurice Atkinson, hereby certify

that I am a member of the Bar of this Court.

/s/ John F. Yaninek

JOHN F. YANINEK
No. 20-7889

 

IN THE SUPREME COURT OF THE UNITED STATES

 

ANTHONY SISTRUNK
Petitioner
v.

UNITED STATES OF AMERICA
Respondent

 

DECLARATION PURSUANT TO RULE 29.2
OF THE RULES OF THE SUPREME COURT

I declare under penalty of perjury under the laws of the United States of
America that Respondent Maurice Atkinson’s Brief In Support Of Petitioner
Anthony Sistrunk’s Petition For Writ Of Certiorari was mailed to the Clerk’s Office
of the United States Supreme Court in Washington D.C., postage paid and fees paid

(USC-426), First Class Mail.

DATE: May 5, 2021

/s/ John F. Yaninek

John F. Yaninek
Counsel for Respondent,
Maurice Atkinson
